           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      CONTROLS OVER CHANGES
      MADE TO DIRECT DEPOSIT
         ROUTING NUMBERS

     March 2010    A-02-08-28052




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
MEMORANDUM

Date:      March 26, 2010                                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Controls over Changes Made to Direct Deposit Routing Numbers (A-02-08-28052)


           OBJECTIVE

           Our objective was to determine the effectiveness of the Social Security Administration’s
           (SSA) controls over multiple direct deposit routing number changes made to the same
           beneficiary’s account in a short period of time.

           BACKGROUND
           The Debt Collection Improvement Act of 1996 1 requires that certain Federal payments
           be processed by electronic fund transfers (direct deposit). This requirement applies to
           Title II benefit payments SSA makes to its beneficiaries. In addition, benefit payments
           that are direct deposited into a beneficiary’s bank account are a cost-effective and
           secure method of disbursing Social Security payments to beneficiaries both within and
           outside the United States. Accordingly, SSA encourages beneficiaries to use direct
           deposit for their benefit payments. As of October 2009, approximately 87 percent of all
           Title II payments were made through direct deposit.

           When beneficiaries who have their benefits direct deposited change bank accounts,
           they can call or visit a field office or call the 800-number to request that their payments
           be deposited into their new bank accounts. In the past, a small number of SSA
           employees redirected beneficiary payments to their own bank accounts. To help
           prevent such instances of fraud, SSA put controls in place to detect certain changes
           made to beneficiaries’ bank account information.

           To meet our audit objective, we obtained a data extract from 1 segment of SSA’s
                                                    2
           Payment History Update System (PHUS) and identified 4,453 Title II beneficiaries with
           3 or more changes made to their direct deposit account and routing numbers in

           1
            Pub. L. No. 104-134, Title III, Rescissions and Offsets, Chapter 10, Debt Collection Improvements §
           31001(x)(1); see also 31 U.S.C. § 3332.
           2
               One segment of the PHUS represents 5 percent of the total population.
Page 2 - The Commissioner


Calendar Year 2007. From this population, we selected a sample of 172 records for
further review. Specifically, we selected all 22 records with 9 or more bank-related
changes, 50 records with 5 to 8 changes, and 100 records with 3 or 4 changes. We
provided SSA with our results to obtain additional information needed to complete our
review. Additional details on our scope and methodology are found in Appendix B.

RESULTS OF REVIEW
While SSA had a control in place to detect when one or more beneficiaries’ payments
were diverted via direct deposit into the same bank account, it did not have a control to
detect, or alert SSA staff of, multiple direct deposit routing number changes made for
the same beneficiary over a short period of time. All 172 records we reviewed had
multiple direct deposit account and routing number changes made within a 3-month
period.

SSA was able to contact 130 of the 172 beneficiaries in our sample. Of the
130 beneficiaries contacted, 29 (22 percent) made reports of non-receipt of their benefit
payments when these changes were made. While the combination of multiple routing
number changes and non-receipt reports suggests a problem in delivering benefit
payments to some beneficiaries, fraud did not appear to be involved with the changes
made to any of the beneficiaries’ bank information. 3 Through the results of SSA
contacts and our analysis of the beneficiaries’ records, we were able to rule out the
possibility of fraud as the cause of the bank information changes for these cases.

SSA was unable to contact 29 of the 172 beneficiaries to determine whether they were
aware of the bank account information changes made to their accounts and ensure
they were receiving their benefit payments. 4 Accordingly, we could not determine
whether changes made to the bank information for these 29 beneficiaries were proper.

DIRECT DEPOSIT ROUTING NUMBER CHANGES

As part of our review, we requested that SSA contact the 172 beneficiaries in our
sample to determine whether they were aware that multiple changes had been made to
the bank information used for their benefit payments. SSA was able to contact 130 of
the 172 beneficiaries. Based on SSA’s contact with these beneficiaries, we do not
believe that fraud was a factor in the direct deposit changes. While fraud did not
appear to be an issue, 29 of 130 beneficiaries contacted had made non-receipt claims
at the time multiple changes were made to their bank information.



3
  In reviewing one case, an SSA employee concluded that fraud may have been involved. The suspected
fraud was related to the beneficiary’s report of non-receipt of paper checks before the beneficiary began
receiving direct deposited payments.
4
  In addition to these 29 beneficiaries, SSA was unable to contact 12 of the 172 beneficiaries because
they were deceased and 1 because he was incarcerated.
Page 3 - The Commissioner


Routing Number Changes and Non-Receipt of Payment Reports

While fraud did not appear to be a factor, some beneficiaries had problems receiving
benefit payments. Of the 130 beneficiaries SSA was able to contact, 29 made non-
receipt of payment claims at the time multiple changes to their bank information were
made. In fact, seven beneficiaries made multiple non-receipt reports—with one
beneficiary making eight non-receipt reports.

Once SSA staff receives a non-receipt claim, it takes certain steps to verify the validity
              5
of the claim. For example, staff checks the PHUS to determine whether the payment
was issued. If the payment was not issued, staff determines why and takes necessary
action. If the payment was issued, staff may also verify with the beneficiary that the
direct deposit routing and account numbers are correct. If both numbers are correct,
staff inquires whether the beneficiary contacted his or her bank to confirm it did not
receive the funds in the beneficiary’s account.

If the payment was issued, SSA staff records the non-receipt in its system. Per SSA’s
Program Operations Manual System (POMS), input of a non-receipt of a direct deposit
would not result in an overpayment because, unlike paper checks, another payment is
not automatically issued. The Department of the Treasury (Treasury) places a trace on
the payment to determine whether the correct bank received it and, if so, what that
bank did with the payment. In most cases, payments made to incorrect banks or bank
accounts are returned to SSA.

Replacement Payments

While another payment is not automatically issued as a result of a non-receipt report for
a direct deposit, SSA can issue a replacement payment to a beneficiary before
Treasury completes its investigation if the beneficiary alleges dire need. In this
situation, SSA staff can issue an immediate payment for up to $999 and use the Critical
Payment System (CPS) for any balance due.

Five of the 29 beneficiaries who made a non-receipt claim were overpaid because they
received 2 payments when only 1 was due. Four of the five beneficiaries had actually
received the payments they claimed were missing. Since they received these
payments, they were not eligible for the replacement payments they received, which
caused the overpayments. While the fifth beneficiary did not receive the payment he
claimed was missing, he received two replacement payments—one more than he was
eligible to receive. Two of these five beneficiaries were receiving their benefits by direct
deposit at the time they made the non-receipt claims that resulted in overpayments.
The other three beneficiaries did not have direct deposit at the time of the non-receipt
reports that resulted in overpayments. They had reported a non-receipt of a paper
benefit check. The total overpayment for these cases was $6,005, though SSA was
able to collect $1,411 from one of the beneficiaries.

5
 For a list of the steps SSA takes when a non-receipt claim is received see SSA, POMS GN 02406.007D
and E.
Page 4 - The Commissioner


STATUS OF 29 BENEFICIARIES NOT CONTACTED BY SSA

We were unable to determine whether the beneficiaries SSA did not contact were alive
and receiving their benefit payments when multiple changes were made to their direct
deposit account and routing numbers. We determined that 25 of the 29 beneficiaries
were in current pay status at the time of our audit. Of the four not in pay status, SSA
suspended one beneficiary’s payments for failing to respond to its contact attempts and
                                                                                     6
terminated two other beneficiaries’ payments before its attempts to make contact. The
fourth beneficiary had passed away. The 25 beneficiaries who were still receiving
benefits were collecting a combined monthly benefit of $22,957 at the time of our audit.
These results were generated from one segment of the PHUS. When applied to the
population, the estimated total monthly benefit amount is about $11.8 million for
13,380 individuals whom SSA did not contact. When estimated over a 12-month
period, SSA will pay these individuals over $141 million.

There is a risk that these beneficiaries’ payments were unknowingly diverted by a third
party through direct deposit account and routing number changes. There is an
additional risk that these beneficiaries were deceased and a third party took control of
their benefit payments. Accounts with a higher number of changes to their bank
information within 1 year may indicate that some changes are being made by someone
other than the beneficiaries. For example, a third party could attempt to reroute a
benefit payment multiple times, as a beneficiary attempts to reroute the payments back
to his account each time, raising the total number of changes made to the account.
Also, older beneficiaries may be at greater risk of unknowingly having their benefit
payments redirected. For example, older beneficiaries may be less able to care for
their own finances because of the increased likelihood of the onset of dementia or
Alzheimer’s disease. Medical statistics state that up to 50 percent of individuals over
age 85 may suffer from dementia or Alzheimer’s disease. Lastly, some methods used
to change a routing number may pose a higher risk if a third party is involved. For
example, it may be easier for a third party to initiate a change by calling SSA’s
800-number or using the Internet than visiting a field office where face-to-face contact
with SSA staff would occur.

Risk Factors Related to the 29 Beneficiaries

We reviewed the 29 beneficiaries to determine whether some may be at a higher risk of
having their benefit payments diverted from their bank accounts. Three of the
29 beneficiaries were age 80 or older; and 6 were age 70 or older. A breakdown of the
ages of the beneficiaries follows.




6
 One beneficiary’s payments were terminated because of cessation of his disability, and the other
beneficiary’s payments were terminated because he attained age 18.
Page 5 - The Commissioner



                       Age Group             Number of Beneficiaries
                  85 years or older                     1
                  80 to 84 years                        2
                  75 to 79 years                        1
                  70 to 74 years                        2
                  65 to 69 years                        4
                  60 to 64 years                        4
                  Under 60 years                       15
                  Total                                29

In total, the 29 beneficiaries had 125 changes made to their direct deposit account and
routing numbers over a 3-month period. Two of the 29 beneficiaries had 10 or more
changes made to their bank information in a short period of time. Eight of the
29 beneficiaries had 5 or 6 changes to their bank information, and 19 beneficiaries had
3 or 4 changes. Seven of 29 beneficiaries reported they did not receive a payment
when multiple changes were being made to their bank account information.

In addition to the changes made in 2007, 17 of the 29 beneficiaries had 38 changes to
their bank information after our review period. One of these individuals had 14 such
changes. Only one of these beneficiaries made a report of non-receipt of his benefit
payment when these later changes were made.

Of the125 changes made in 2007, 70 were made through a call to SSA’s 800-number,
and 12 were made through the Internet—2 methods that do not involve face-to-face
contact with an SSA employee. A breakdown of the methods used to initiate the
routing number changes is included in the following table.

                    Method of Change                Number of Changes
            SSA’s 800-number                               70
            Initiated by a financial institution           24
            Field office visit                             19
            Internet                                       12
            Total                                         125

Without contact with the 29 beneficiaries or their representative payees, we could not
determine whether they were receiving their benefit payments or a third party had
inappropriately diverted their payments. We believe the inability to contact these
beneficiaries, number of changes made to a beneficiary’s routing number, beneficiary’s
age, and method used to initiate a change can affect the level of risk related to the
appropriateness of a routing number change. Also, a combination of these factors can
indicate a higher level of risk. For example, 1 of the 29 beneficiaries was an 80-year-
old beneficiary who had 5 changes to his bank account information in a short period of
time—all initiated through the Internet.
Page 6 - The Commissioner


Lastly, while frequent direct deposit changes could indicate that an individual needs
assistance in handling funds, only 2 of the 29 beneficiaries had a representative payee
at the time of our review. They had representative payees because they were under
18 years of age.

PREVIOUS RECOMMENDATION ON NON-RECEIPT CLAIMS OF DIRECT
DEPOSITED BENEFIT PAYMENTS

A regional Center for Security and Integrity staff previously recommended changes to
the sections in SSA’s POMS that address how to handle allegations of non-receipt of
payment for beneficiaries with direct deposited benefit payments. Specifically, the
regional team recommended in August 2006 that SSA staff who review such cases
should be alert that some complaints of unauthorized changes to direct deposit
information could be the result of fraudulent diversion of payments. The change was
suggested because of a case that involved fraudulent diversions of Title II benefit
payments from a legitimate direct deposit bank account to one controlled by an
individual unknown to the beneficiaries. Per the regional staff, the suggested changes
to the POMS were well received by SSA Headquarters staff, but they have not been
implemented.

PERSONAL IDENTIFICATION NUMBER ANALYSIS

Each SSA employee with access to the Agency’s electronic records has a personal
identification number (PIN). An employee who makes a change to a beneficiary’s direct
deposit routing number has to enter his or her PIN to complete the transaction. SSA’s
systems retain the employees’ PINs for such transactions.

To determine whether any SSA employees were involved in multiple routing number
changes to the cases in our sample, we reviewed the PINs involved with the routing
number changes for the 172 beneficiaries. We did not find any questionable trends.
Most of the employees reviewed only made one routing number change. Only
61 employees were responsible for more than 1 direct deposit account and routing
number change: 55 made 2 routing number changes; 5 made 3 such changes; and
1 made 4. However, many of the employees who made more than one direct deposit
account and routing number change only made one change per beneficiary.

CONCLUSION AND RECOMMENDATIONS

SSA’s automated controls over bank account routing number changes do not detect or
alert SSA staff of multiple bank information changes made to the same beneficiary’s
account over a short period of time. All 172 beneficiaries we reviewed had multiple
direct deposit account and routing number changes made within a 3-month period.
SSA was able to contact 130 of these beneficiaries. Through the results of those
contacts and our analysis of the beneficiaries’ records, we were able to rule out the
possibility of fraud as the cause of the bank information changes. However, SSA was
unable to contact 29 of the 172 beneficiaries to determine whether they were aware of
Page 7 - The Commissioner


the bank information changes made. Of these 29 beneficiaries, 25 were still being
issued payments. Accordingly, we could not determine whether changes made to the
direct deposit account and routing numbers for these 25 beneficiaries were proper.

Accordingly, we recommend that SSA:

1. Contact the 25 beneficiaries who were not located and are still receiving benefit
   payments to determine whether they authorized the changes made to their routing
   numbers and whether they should continue to receive their benefits. For the
   beneficiaries who cannot be contacted, SSA should suspend and/or terminate their
   benefit payments.

2. After concluding the status of the 25 beneficiaries, determine whether an automated
   control alerting SSA staff of multiple direct deposit routing number changes made to
   the same beneficiary’s account in a short period of time would assist in identifying
   unauthorized changes to a beneficiary’s direct deposit information.

3. Modify POMS to alert its employees that allegations of non-receipt for directly
   deposited benefit payments and unauthorized changes of direct deposit routing
   numbers could possibly be the result of fraud and, if fraud is suspected, referrals to
   the Office of the Inspector General, Office of Investigations, should occur.

AGENCY COMMENTS
The Agency agreed with our recommendations. See Appendix D for the full text of the
Agency’s comments.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                 Appendix A

Acronyms
BOAN          Beneficiary’s Own Account Number
CPS           Critical Payment System
OIG           Office of the Inspector General
PHUS          Payment History Update System
PIN           Personal Identification Number
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSN           Social Security Number
Treasury      Department of the Treasury
U.S.C.        United States Code
                                                                                   Appendix B

Scope and Methodology
To accomplish our objective, we:

•     Reviewed applicable sections of the Social Security Act and other relevant
      legislation, as well as the Social Security Administration’s (SSA) regulations, rules,
      policies and procedures.

•     Obtained a data file of 26,869 Title II records from 1 segment of SSA’s Payment
      History Update System 1 with 2 or more bank changes to the beneficiaries’
      information in Calendar Year 2007. The records were identified by the beneficiary’s
      own account number (BOAN) and were sorted by the number of changes to their
      respective bank account information. From this population, we identified
      4,453 Title II beneficiaries with 3 or more bank changes in Calendar Year 2007. We
      ensured the changes were direct deposit changes and directly related to changes
      under the BOAN.

•     Selected a sample of 172 records. Specifically, we selected all records from the
      population with 9 or more bank-related changes—22 records total. We also
      selected 50 random records with 5 to 8 changes and 100 random records with 3 or
      4 changes.

•     Interviewed personnel from the Center for Security and Integrity to determine
      whether any Social Security numbers (SSN) in our data matched any of their
                                           2
      misdirected payments on Teletrace. Of the 172 cases in our review, only
      5 matched SSNs in the Teletrace database. None of the matches resulted in
      fraudulent activity. There were a total of seven Teletraces included for five SSNs
      because one SSN produced three Teletrace reports.

•     Requested assistance from SSA to obtain necessary information to complete our
      review, which included SSA staff attempting to contact the beneficiaries in our
      sample to discuss their knowledge of the transactions on their records. SSA
      conducted telephone interviews with 130 of the 172 claimants. SSA was unable to
      contact 13 of the 172 beneficiaries because they were deceased or incarcerated.
      SSA was unable to contact the remaining 29 beneficiaries.




1
    One segment of the Payment History Update System represents 5 percent of the total population.
2
 Teletrace is a database used by the Department of the Treasury to generate a monthly report of all
misdirected payments.


                                                    B-1
•   Completed additional analysis of the 29 beneficiaries SSA was unable to contact.
    We reviewed the beneficiaries’ demographics and benefit payment histories to
    determine whether they were at risk of having their benefit payments redirected
    because of an unauthorized change to their bank routing numbers. We determined
    the beneficiaries who were in current pay status were receiving monthly benefits
    totaling $22,957. We assumed our findings from this segment would be
    representative of the other 19 segments. Therefore, for the sample group with 9 or
    more bank related changes, we multiplied the findings of our dollar value by 20 for
    an overall estimate to the entire population. Regarding the sample group with five to
    eight changes, we employed a straight-line estimate to the segment population
    since there were few cases that fell into this category. We then computed an overall
    estimate to the entire population of 20 segments. To project a dollar value of
    monthly benefits for the sample group with three or four changes, we made
    projections through the use of our statistical software RAT-STATS. Our projections
    for the segment we reviewed were then estimated to all 20 segments.

We conducted our audit in the New York Audit Division between September 2008 and
October 2009. A significant portion of this time was because of the time SSA took to
contact the 172 beneficiaries. We provided SSA with the list of beneficiaries to contact
in September 2008. However, SSA did not send its final response on its contacts with
the beneficiaries to us until September 2009.

We found the data used for this audit were sufficiently reliable to meet our objective.
The entities audited were SSA’s field offices and teleservice centers under the Deputy
Commissioner for Operations. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                           B-2
                                                                      Appendix C

Sampling Methodology and Results
We obtained a data file of 26,869 Title II records from 1 segment of SSA’s Payment
History Update System (PHUS) with 2 or more bank changes to the beneficiaries’
information in Calendar Year 2007. From this population, we identified 4,453 Title II
beneficiaries with 3 or more bank changes in Calendar Year 2007. From this data file,
we selected a sample of 172 records. Specifically, we selected all records from the
population with 9 or more bank related changes—22 records total. We also selected
50 random records with 5 to 8 changes and 100 random records with 3 or 4 changes.

As part of our review, we asked SSA to contact the 172 beneficiaries. SSA was unable
to contact 25 of the beneficiaries in our sample who were in current pay status to
ensure they were receiving their benefits. We determined these beneficiaries were
receiving monthly benefits totaling $22,957, which were at risk. The total monthly
benefit amount received by the beneficiaries as of October 2009 for each of the three
samples is included in Table C-1.

                             Table C-1 – Sample Results

                                                       Number of Non-
                                                         Contacted           Monthly
                         Sample       Population      Beneficiaries from     Benefit
    Sample Group          Size          Size            Each Sample          Amount
  9 or more changes         22             22                  2              $2,387
  5 to 8 changes            50            289                  8              $7,448
  3 to 4 changes           100          4,142                 15             $13,122
  Total                    172          4,453                 25             $22,957

Since beneficiaries were reviewed from a sample from one segment of the PHUS, we
developed an estimate of beneficiaries, and corresponding monthly payments at risk, to
the one segment for individuals with five to eight changes and a projection to the
segment for individuals with three or four changes. As previously mentioned, we
reviewed all 22 individuals in the segment with 9 or more changes. We also developed
estimates for the entire PHUS based on our analysis of the one segment.

Using a straight-line estimation methodology, we estimate that 46 beneficiaries with 5 to
8 changes were at risk in the segment under review. The 8 individuals in our sample
had an average monthly benefit amount of $931; therefore, we estimate $42,826 in
monthly benefits were at risk for the estimated 46 individuals in the segment under
review. For the entire PHUS (all 20 segments), we estimate $856,520 in monthly
benefits for approximately 920 beneficiaries were at risk.



                                           C-1
For beneficiaries with three or four changes, the following projection was developed.
    Table C-2 – Projected Results for Sample of Beneficiaries with 3 or 4 Changes
                                            Number of              Monthly Benefit
                 Description                Individuals               Amount
           Sample Results                         15                  $13,122
           Point Estimate                       621                  $543,513
           Projection-Lower Limit               395                  $293,736
           Projection-Upper Limit               914                  $793,291
                Note: All statistical projections are at a 90-percent confidence level.

The results discussed above are for one segment of the PHUS. For all 20 segments of
the PHUS, we estimate approximately 12,420 beneficiaries with 3 or 4 changes had
$10,870,260 in monthly benefits at risk.

Please see Table C-3 for the total estimated number of beneficiaries at risk and Table
C-4 for the total estimated monthly benefit amount at risk.
             Table C-3 - Total Estimated Number of Beneficiaries at Risk
                          (for all 20 segments of the PHUS)
                                  Number of At-Risk                 Number of At-Risk
                                 Beneficiaries in One               Beneficiaries in 20
           Sample Group               Segment                          Segments
         9 or more changes                  2                                 40
         5 to 8 changes                    46                               920
         3 to 4 changes                  621                             12,420
         Total                           669                             13,380
.
      Table C-4 - Total Estimated Amount of Monthly Benefit Payments at Risk
                          (for all 20 segments of the PHUS)
                                  Amount of At-Risk                 Amount of At-Risk
                                   Monthly Benefit                   Monthly Benefit
                                  Payments in One                    Payments in 20
           Sample Group              Segment                           Segments
         9 or more changes              $2,387                            $47,740
         5 to 8 changes                $42,826                           $856,520
         3 to 4 changes              $543,513                         $10,870,260
         Total                       $588,726                         $11,774,520

In total, 13,380 beneficiaries who receive $11,774,520 in monthly benefits are at risk. If
SSA does not contact these individuals to determine whether they or their authorized
representative payees are still receiving and benefiting from their monthly benefit
payments, we estimate that an additional $141,294,240 will be at risk over the next
12 months.




                                                 C-2
                  Appendix D

Agency Comments
                                        SOCIAL SECURITY


MEMORANDUM


Date:       March 22, 2010                                                       Refer To:   S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       James A. Winn /s/
            Executive Counselor
            to the Commissioner

Subject:    Office of the Inspector General (OIG) Draft Report, “Controls over Changes Made to Direct
            Deposit Routing Numbers” (A-02-08-28052)--INFORMATION


           Thank you for the opportunity to review and comment on the subject draft report. We
           appreciate OIG’s efforts in conducting this review. Attached is our response to the report
           findings and recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment




                                                        D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “CONTROLS OVER CHANGES MADE TO DIRECT DEPOSIT ROUTING
NUMBERS” (A-02-08-28052)


Below please find our comments to the draft report findings and recommendations.

Recommendation 1

 Contact the 25 beneficiaries who were not located and are still receiving benefit payments to
determine whether they authorized the changes made to their routing numbers and whether they
should continue to receive their benefits. For the beneficiaries who cannot be contacted, SSA
should suspend and/or terminate their benefit payments

Comment

We agree. We will contact the 25 beneficiaries who were not located and determine whether the
beneficiary authorized the changes made to the routing numbers. We will determine, on an
individual basis, whether the beneficiary should continue to receive benefits.

Recommendation 2

After concluding the status of the 25 beneficiaries, determine whether an automated control
alerting SSA staff of multiple direct deposit routing number changes made to the same
beneficiary’s account in a short period of time would assist in identifying unauthorized changes
to a beneficiary’s direct deposit information.

Comment

We agree. After we review the 25 cases, we will determine whether an automated control can
assist us in identifying unauthorized changes to a beneficiary’s direct deposit information.

Recommendation 3

Modify POMS to alert its employees that allegations of non-receipt for directly deposited benefit
payments and unauthorized changes of direct deposit routing numbers could possibly be the
result of fraud and, if fraud is suspected, referrals to the Office of the Inspector General, Office of
Investigations should occur.

Comment

We agree. We will incorporate the change in our next Program Operations Manual System
update, which we plan to complete by May 28, 2010.




                                                 D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Audit Division

   Christine Hauss, Audit Manager

Acknowledgments

In addition to those named above:

   Abe Peters, Auditor

   Vincent Huang, Program Analyst

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-02-08-28052.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
